20-8ST5

ORIGINAL
filed

IN THE

FEB 1 0 2021

SUPREME COURT OF THE UNITED STATES

LUISA M. LIBERTO & JEFFREY M. LIBERTO - PETITIONER(S)
vs.

GEISINGER HOSPITAL. Janet Sherman. Regional Director. Patient Access Central
Region: Jan Letteer. Human Resourses Generalist: Can Deoak. Senior Access Rep:
Theresa Phillips. Patient Access Ren: Wendv Low. Manager. Patient Access Services:
Dr. David T. Feinberg. (Former) CEO: Diane Pardoe. Volunteer Coordinator: Shelly
Lee Tyson. Director of Volunteer Services: Josh Wolfe. Human Services Generalist:
Stacev Fisher. Senior Director. Guest Services: Lisa Kobelis. PAC: Valerie Mohutskv.
Manager. Workmans Compensation - RESPONDENT^)
ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT - Philadelphia

PETITION FOR WRIT OF CERTIORARI

LUISA M. LIBERTO & JEFFREY M. LIBERTO

7 MEMORIAL ACRES

SUNBURY. PA 17801

(570) 492-1701

l

<n> ^
( «

QUESTION(S) PRESENTED

Due to his intellectual disabilities, Jeffrey Liberto was banned from his volunteering
position at Geisinger Hospital, without explanation, and prevented from obtaining
employment.

Jeffrey Liberto was then forced to watch Geisinger Hospital upper

management inflict cruel and unusual punishment on his mother while informing him of
why they had banned him from his volunteering position one week earlier. Did Geisinger
Hospital upper management discriminate, harass, and inflict cruel and unusual
punishment on Jeffrey Liberto in violation of Title VII and the VIII Amendment?
Did Geisinger Hospital use Jeffrey Liberto, Luisa’s son, as a means to harass and
psychologically inflict cruel and unusual punishment on Luisa Liberto?
Luisa Liberto was sought out (targeted) by Geisinger Hospital, interviewed by a regular
employee for a position that had never been posted, and hired four months later when the
position was finally posted. She was then subjected to discrimination, harassment, abuse,
blackballing, and cruel and unusual punishment before being wrongfully teiminated..
Did Geisinger Hospital use targeting, discrimination, harassment, blackballing, abuse,
and wrongful termination to inflict cruel and unusual punishment on Luisa Liberto in
violation of Title VII and the VIII Amendment?

Did Geisinger Hospital violate Title VII of the Civil Rights Act, of 1964 & 1990, Title
VII of the Civil Rights Act, 42 U.S.C. s2000e (ADA) 42 U.S.C. 12101; and the XIII
Amendment of the Constitution by inflicting all the above-mentioned acts on Petitioners?

u

LIST OF PARTIES

X All parties appear in the caption of the case are on the cover page.
_ AH parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition is as
follows:

RELATED CASES

Liberto vs. Geisinger Hospital, et al, No. 4:17-cv-02320, U.S. District Court for the
Middle District of Pennsylvania. Judgement entered April 16, 2020.
Liberto vs. Geisinger Hospital, et al., No. 18-2990, U.S. Court of Appeals for the Third
Circuit, Philadelphia, PA. Judgement entered April 27, 2020.
Liberto vs. Geisinger Hospital, et al, No. 20-2012, U.S. Court of Appeals for the Third
Circuit, Philadelphia, PA. Judgement entered Dec. 16, 2020.

Court Dockets included herein.

m

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

\

STATUTES AND RULES

OTHER

iv

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT.

18

CONCLUSION

20

INDEX TO APPENDICES
APPENDIX A

Opinion filed November 24, 2020 - Case No. 20-2012
U.S. Third Circuit, Philadelphia, PA
Briscoe v. Klaus, 538 F.3d 252,257 (3d Cir. 2008)

APPENDIX B

Judgment filed December 16, 2020 - Case No. 20-2012
U.S. Third Circuit, Philadelphia, PA

APPENDIX C Notice of Appeal dated May 18, 2020
with Amended Complaint dated July 3,2018
APPENDIX D

Civil Docket for Case No. 20-2012

APPENDIX E

Opinion filed Feb 27, 2020 - Case No. 18-2990
U.S. Third Circuit, Philadelphia, PA

APPENDIX F

Order filed Feb 27, 2020 - Case No. 18-2990
U.S. Third Circuit, Philadelphia, PA
Fed. R. App. P. 3(a) and 3rd Cir. Misc. LAR 107.2(b)

APPENDIX G Order filed March 26,2020 - Case No. 18-2990
U.S. Third Circuit, Philadelphia, PA
Court did not honor 14 day extension to file due to Covid-19***
APPENDIX H Order filed April 9, 2020 - Case No. 18-2990
U.S. Third Circuit, Philadelphia, PA
APPENDIX I

Order filed November 15,2019 — Case No. 18-2990
Motion for Reconsideration Denied

v

APPENDIX J Notice of Appeal dated September 5,203 8
**♦ Amended Complaint not included as it was included with prior
Notice of Appeal dated May 15,2020
APPENDIX K Motion for Appointment of Counsel dated August 20,2019
Case No. 18-2990, U.S. Circuit Court, Philadelphia, PA
APPENDIX L Motion for Extension of Time to File Brief Dated August 20, 2019
Case No. 18-2990, U.S. Circuit Court, Philadelphia, PA
APPENDIX M Letter to Honorable Judges - Case No. 18-2990
U.S. Circuit Court, Philadelphia, PA
***Attachments not included because they were included in the
Notice of Appeal dated May 18,2020
APPENDIX N Motion for Extension of Time to File a Brief dated Feb 11,2020
Case No. 18-2990, U.S. Circuit Court, Philadelphia, PA
APPENDIX O Notice from Circuit Court informing of Delay in Outgoing Mail and
Deadlines shall be extended 14 days due to Covod^l 9
APPENDIX P Motion to Reopen with Informal Brief dated March 11,2020
Case No. 18-2990, U.S. Circuit Court, Philadelphia, PA
♦♦♦Court did not honor the 14 day extention and did not acknowledge
receiving the Informal Brief***
APPENDIX Q Motion to Reconsider March 26,2020 Order, dated April 16,2020
Case No. 18^2990, U.S. Circuit Court, Philadelphia, PA
APPENDIX R Civil Docket for Case No. 18-2990
APPENDIX S Report and Recommendation (Opinion) filed March 30, 2020
Case No. 4:17-cv-02320 - U.S. District Court, Middle District of PA
Briscoe v. Klaus, 538 F.3d 252,257 (3d Cir. 2008)
APPENDIX T Report and Recommendation (Opinion) filed July 30,2018
Case No. 4:17-cv-02320 - U.S. District Court, Middle District of PA
Briscoe v. Klaus, 538 F.3d 252,257 (3d Cir. 2008)
APPENDIX U ORDER filed April 16, 2020 - Case No! 4:17-cv-02320
U.S. District Court, Middle District of PA
APPENDIX V ORDER dated Feb 27,2020 - Case No. 4:17-cv-02320
U.S. District Court, Middle District of PA
Remand matter back to M. J. Carlson

vi

a

APPENDIX W ORDER dated Feb 28,2020 — Case No. 4:17-CV-02320
U.S. District Court, Middle District of PA
Order to File Amended Complaint
♦♦♦Petitioners were preparing Informal Brief as Circuit Court case
management said. Petitioners asked Clerks of both Courts if the
District Court could file an Order if the case was still pending in the
Circuit Court. They could not answer that question. No attorneys
were available. ***
APPENDIX X ORDER dated August 17,2018 - Case No. 4:17-cv-02320
U.S. District Court, Middle District - PA
Case Dismissed.
APPENDIX Y

Civil Docket for Case No. 4:17-cv-02320

Vll

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioners respectfully pray that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
X For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix Ato the
petition and is
X reported at U.S. District Court for the Middle District of Pennsylvania; or,
_ has been designated for publication but is not yet reported; or,
_ is unpublished.
X reported at U.S. District Court for the Middle District of Pennsylvania: or,
_ has been designated for publication but is not yet reported; or,
_ is unpublished.
The opinion of the United States district court appears at Appendix B to the
petition and is
X reported at U.S. District Court for the Middle District of Pennsylvania; or,
_ has been designated for publication but is not yet reported; or,
_ is unpublished.
For cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix _
to the petition and is
_ reported at_________________________________________
_ has been designated for publication but is not yet reported; or,
__ is unpublished.
The opinion of the _
appears at Appendix

or,

court
to the petition and is

_ reported at_________________________________________
_ has been designated for publication but is not yet reported; or,
_ is inpublished.

1

or,

JURISDICTION

X For cases from federal courts:
The date on which the United States Court of Appeals decided my case was
December 15.2020.
_ No petition for rehearing was timely filed in my case.
X A timely petition for rehearing was denied by the United States Court of
Appeals on the following dates: ** See note below** Case No. 18-2990.
and_a copy for the order denying rehearing appears at
Appendix _.
_ An extension of time to file the petition for a writ of certiorari was granted to
(date)
and including_______
(date) on
in Application No.__A
**Case Manager Tim McIntyre had said Petitioners could file a Petition for
Rehearing after the Case was Dismissed on February 27,2020; then someone
else in the background said Petitioners must file a Motion to Reopen instead.**
The jurisdiction ofthis Court is invoked under 28 U.S.C. sl254(l).

For cases from state courts:
The date on which the highest state court, decided my case was
A copy of that decision appears at Appendix______.
_ A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing appears
at Appendix
_ An extention of time to file the petition for a writ of certiorari was granted to
(date) in
(date) on
and including______
Application No.___A
The jurisdiction ofthis Court is invoked under 28 U.S.C. sl257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

VIII (Eighth) Amendment of the Constitution - Cruel and unusual punishment

The VIII Amendment proscribes more than physically barbarous
punishments and embodies broad and idealistic concepts of dignity,
civilized standards, humanity, and decency against which a court must
evaluate penal measures. - Estelle v. Gamble, 429 U.S. 97 (1976)

Punishments which are incompatible with evolving standards of decency
that mark the progress of a maturing society, or which involve
unnecessary or wanton infliction of pain, are repugnant to the VIII
Amendment. - Estelle v. Gamble, 429 U.S. 97 (1976)
Among unnecessarily and wanton inflictions of pain prohibited by the
VIII Amendment are those that are totally without penalogical
justification. - Rhodes vs. Chapman 452 U.S. 337 (1981)

Some Courts have stated that only the unnecessary and wanton infliction
of pain can constitute a violation of the prohibition against cruel and
unusual punishment:
Collins v. Bopson, 816 F.Supp. 335 (E.D. Pa. 1993)
Talib v. Gilley, 138 F. 3d 211 (5"1 Cir. 1998)
Friends v. Morre, 776 F.Supp. 1382 (E.D. Mo. 1991)
Ruble v. King, 911 F. Supp. 1544 (N.D. Ga. 1995
Such statements should not be taken to mean that the infliction of pain is
the only way in which the prohibition against cruel and unusual
punishment can possibly be violated.

3

A violation of the prohibition against cruel and unusual punishment can
be found even absent the infliction of actual physical pain.
Avery v. Powell 695 F. Supp. 632 (D. N.H. 1988)
The scope of the VIII Amendment is broader than the mere infliction of
physical pain. - Sher v. Engelke, 943 F. 2d 921 (8th Cir. 1991)
Additional acts that contributed to the cruel and unusual punishment.
Title VII of the Civil Rights Act of 1964, 1981, and 1990; and
Title VII of the Civil Rights Act 42 U.S.C. s2000e, (ADA) 42 U.S.C. 12101
Discrimination, Harassment, Targeting, Bullying, Abuse, and Wrongful Termination
42 U.S Code s!2203: Prohibition Against Retaliation
No person shall discriminate any individual because such individual has opposed any act
or practice made unlawful by this chapter or because such individual made a charge.
Black-balling should be illegal and it violates the U.S. Declaration of Independence “...all men are created equal, endowed by their creator with certain unalienable rights,
that among these are Life, Liberty, and the Pursuit of Happiness.”

4

STATEMENT OF THE CASE

This Employment Discrimination, Harassment, Cruel and Unusual Punishment,
Wrongful Termination, and Black-balling case was dismissed* not because of the merits,
but because of technicalities which Petitioners did not understand. Petitioners are being
black-balled and prevented from obtaining legal counsel, employment, and the Right to a
Life abounding in Liberty to Pursue Happiness, Tranquility, and Prosperity with Freedom
from Oppression.
No American citizen* including Americans with intellectual disabilities, should be
i

■

subjected to any of the above-mentioned in their place of volunteering or employment

.

f

No employer should have the right to target, discriminate, harass, torture, ban,
wrongfully terminate, and black-ball an employee, volunteer, or individual interested in
employment simply because employers in Pennsylvania can do so, then jump under the
umbrella of the “At Will Employment” law, which allows employers to do as they please,
claiming they do not need just cause.

••

Luisa Liberto was sought out (targeted) by Geisinger Hospital, called in and
interviewed by a regular employee, for a position that had never been posted. Luisa
4 •

^

Liberto , was hired five months later, -after the job was finally posted. , Luisa was then
subjected to discrimination, and egregious acts of harassment, black-balling, abuse, and
cruel and unusual punishment before being wrongfully terminated in- retaliation for
speaking out.
Geisinger Hospital’s upper management also used Luisa’s son, Jeffrey Liberto,
who has intellectual disabilities, as a means to harass and psychologically torture Luisa.

5

not receive the Circuit Court’s Opinion dated October 29, 2020, from the District Court
until January 28, 2021. Luisa then was able to submit the Petition of Allowance of
Appeal on February 10, 2021. Petitioners thank this Honorable Court for the Clerk’s
March 8, 2021, letter giving Petitioners Jhe opportunity to file this Petition For Writ of
Certiorari within 90 days.
The following is a condensed account of the egregious acts inflicted on Petitioners
at Geisinger Hospital. In March 2012, Geisinger Hospital employee, Theresa Phillips,
contacted Luisa Liberto regarding a Patient Access Rep position, (which Luisa later
learned had never been posted). Theresa interviewed Luisa, had Luisa shadow her for one
full day on the floors of the hospital, and offered the position to Luisa.
In April 2016, after Theresa asked Luisa to provide Theresa with Luisa’s
references, Luisa spoke to Betsy in HR and learned that there was no application on file
for that position because there was no such job posting.
In June.2016, Regional Director, Janet Sherman, who had given Theresa Luisa’s
Resume and had instructed Theresa Phillips;to contact and interview Luisa, finally posted
the position; and HR Richelle Myers offered the position to Luisa.
On August 1, 2016, Luisa began working at Geisinger Hospital in Danville, PA,
at the Janet Weis Pavillion. Theresa had two enclosed cubicles in the lobby especially for
Theresa and an assistant, away from the rest of the Patient Access Department in the
Main Building of the hospital. Theresa began training Luisa and having Luisa shadow
her on the floors of the hospital.
From August 9, 2016, thru August 11, 2016, Luisa successfully completed
Training Classes to learn to navigate Geising,er’s computer program, The Epic System, in

8

J

7
a separate facility in Buckhom, PA. Luisa began to experience headaches by the end of
each day, which became worse daily and caused her to become very sleepy as she drove
home.
On August 11, 2016, by the end of the day, Luisa’s headache had become so bad
that while driving home that evening her eyes became very heavy; and Luisa had
difficulty staying awake while driving.
On August 12, 2016, still having the headache, Luisa took Ibuprophen and began
driving to complete her last Training Classes, which were not essential to her position.
Luisa had completed the classes pertinent to her position the day before.

Luisa’s

headache was so severe that it became dangerous to continue driving. Being close to
Geisinger Hospital, Luisa went into work and spoke to Janet Sherman, who gave Luisa
permission to work with Theresa. Janet Sherman would reschedule Luisa’s last class.
Theresa Phillips became enraged, even though those last classes had nothing to do
with Luisa’s job; and Janet and Theresa began the harassment and intimidation:
Refusing to give Luisa Keys to her office;
Not allowing Luisa to shadow her on the floors any more;
Denying Luisa access to EPIC by not providing a password for her, at Janet
Sherman;s orders;
Sending Luisa daily “follow-up” emails labeled, “High Importance and
Confidential” on anything Theresa taught Luisa, copying Janet Sherman and
Wendy Low, Luisa’s Direct Supervisor. (Theresa admitted that she had never
sent such emails to any other trainee before).

9

V?

Wendy Low scheduled Luisa for the EPIC classes she missed, but Trainer Eileen
Wolfe insisted Luisa retake all the classes she had successfully completed not even one
and a half (1 14) weeks prior before taking the classes she missed.
Janet Sherman told Luisa she would be transferred to the Patient Access Office
because of all the issues with Theresa. However, the transfer would take some time
because the Department Offices were being relocated to Building F, beside the IT Dept.
Janet Sherman scheduled a meeting with Jan Letteer from HR, Wendy Low,
Luisa, and herself to discuss the harassment and to clarify why Janet Sherman had
searched through all the thousands of applications in Geisinger’s HR data base, choosing
Luisa to be hired as a Patient Access Rep for a position that had not been posted.
On August 23, 2016, Janet Sherman transferred Luisa to the new offices in
Building F, next to the IT Department, assigning Luisa a password for EPIC.
Luisa was the only Hispanic in that department and was at various times subjected
to derogatory remarks. Luisa was assigned a cubicle directly under a vent in the ceiling
that ran constantly, was very noisy, mid never shut off. Whenever Luisa signed on to
EPIC or to her Councelor Log, this already noisy vent would make a kick-on noise, as if
restarting, then became louder. As the already running vent kicked on becoming even
louder and running harder, Luisa would experience pressure in her head, ears, eyes, and
nose causing Luisa a sensation as if her head was going to burst, severe headaches,
nausea, ringing in her ears, and even pain in her joints.
Luisa asked Janet Sherman, Wendy Low, and Cari Depak, Senior Access Rep and
Luisa’s trainer, if the vent could be turned off. Janet Sherman and Cari Depak said the
vent had to stay on at all times because Cari had allergies. Luisa later learned from her

10

doctor that this made no sense because vents stir up dirt which make allergies worse.
Wendy Low wrote several work orders, but nothing ever changed.
Luisa repeatedly asked if she could be relocated to a different cubicle, since there
were six (6) empty cubicles in the office, but her requests were always denied by Janet
Sherman who said, “You’re going to have to get used to it.”

Meanwhile, Luisa’s

symptoms became worse and she felt as if she were being electro-shocked every time she
signed onto EPIC or her Counselor Log.
Wearing earplugs and taking Ibuprophen did not help. Luisa would often have to
jump up suddenly out of her seat to get away from the torturous conditions, hurting her
hip. By the end of each week the symptoms were so unbearable it would take the entire
weekend to recover. Each weekend that passed, Luisa would recover less.
From August 23, 2016, Can Depak, Luisa’s trainer, lied to Luisa about
procedures, thereby forcing Luisa to have to spend more time at her cubicle on the EPIC
system. After several weeks of training, Cari would no longer sit beside Luisa at her
cubicle. Cari would instead sit or stand on the other side of the partition in the empty
cubicle beside Luisa’s cubicle.
Luisa began to experience the symptoms on the laptop that had been assigned to
her when going on the floors to interview patients. Then Luisa began to experience the
symptoms on all the laptops after she signed in. With more exposure to her torturous
work space and laptops, Luisa began to experience sensations as if currents of electricity
were running through her head any time Luisa used any computer or when she came in
contact or near electrical equipment, microwaves, or cell phones, including her own.
Luisa became hypersensitive to electrical equipment, electrical vibratory noise, and high

11

frequency sounds. Luisa spoke to Wendy Low and Jan Letteer numerous times about
Janet Sherman’s unrelenting harassment and cruelty. All Luisa’s pleas were ignored and
the abuse and cruel and unusual punishment continued until Luisa was wrongfully
terminated.
Meanwhile, from October 16, 2016, Shelly Lee Tyson, Director of Volunteer
Services, and Diane Pardoe, Volunteer Coordinator, began calling meetings with Luisa their office dimly lit - and Luisa would experience the torturous symptoms on the chair
they directed Luisa to sit on. Luisa would quickly have to get up from the chair and back
out of the office, speaking to them from outside the door.
Jeffrey Liberto was volunteering at the Main Entrance of the hospital, taking
patients on wheelchairs from the Rabbit Transit Bus to their appointments at the hospital,
then coming back to the Main Entrance and sitting with his coworkers to wait for the next
Rabbit Transit Bus.
On Friday afternoon, October 21, 2016, Shelly Lee Tyson and Diane Pardoe
asked Luisa to meet with them regarding Jeffrey. Jeffrey was doing a good job and they
wanted him to volunteer four (4) hours a day instead of three (3). Luisa related to Shelly
and Diane that Jeffrey had told her that Lauren, a paid employee, had transferred out
from Jeffrey’s department at the Main Entrance to another department; and Jeffrey was
interested in that part-time position.
Jeffrey’s disabilities had been discussed at length with Janet Sherman, Wendy
Low, Shelly Lee Tyson, and Diane Pardoe before Jeffrey began volunteering. The job
they assigned for him was a perfect fit for him. The job worked well with his disabilities.
He performed well in that roll, and he loved it.

12

j

On Monday morning, October 24, 2016, after Jeffrey had already punched in and
was at his work station, Diane Pardoe went to Luisa’s office and told Luisa that Jeffrey
was not to go to the Main Entrance to work. There were issues she could not discuss
with Luisa. Her “higher-ups” had ordered that Jeffrey could no longer work at the Main
Entrance or be seen in the Main Building of the hospital. He had been banned.
Diane, making reference to his intellectual disabilities, made a brick-like motion
with her hands, saying, “Jeffrey needs to be confined to four (4) walls, sitting in one
place.”

Diane told Luisa to go tell Jeffrey he could no longer volunteer at the Main

Entrance, and Luisa had to go inform him.
Jeffrey, after excitedly anticipating that he would replace Lauren in this paid parttime position, received this sudden order instead. He had been banned from the Main
Entrance position and the Main Building, and no one would give him a reason why.
Jeffrey became very embarrassed, confused, and extremely emotionally distressed.
Therefore, Jeffrey had a severe meltdown with loud outbursts.
Luisa wrote a letter to then CEO, Dr. David T. Feinberg, believing he would help.
Instead, Dr. Feinberg was indifferent and insensitive to the discrimination Jeffrey was
being subjected to due to his intellectual disabilities.
Dr. Feinberg assigned HR Generalist, Josh Wolfe, to respond to the letter and to
hold a meeting with Luisa and Jeffrey.
The morning of the meeting, Luisa did not feel well. Luisa called Josh Wolfe and
asked to hold the meeting over the telephone. Josh insisted the meeting must be in
person because there were things that could not be said over the phone. Insisting they
meet in person, Josh accused Luisa of not wanting to speak with him face to face.

13

On November 2, 2016, Josh Wolfe and Stacey Fisher, Sr. Director, Guest
Services, held the meeting with Luisa and Jeffrey in a conference room at the hospital.
The room was apparently unfinished. The room was located in a hallway where rooms
were under construction..

At the meeting, Luisa, already not feeling well, began to

experience pressure in her head, hearing echoes, and feeling as if her head was going to
burst. Luisa had to keep getting up out of her seat with her hands clasping her head,
excusing herself, and quickly leaving the room to obtain relief. Luisa repeatedly asked if
they could please find another room. Josh and Stacey refused, saying there were no other
vacant conference room in the entire hospital.

Josh and Stacey were inhumanly

immovable and subjected Luisa to this horrific torture for two (2) hours while they
barraged accusations at Jeffrey. It was torturous for Jeffrey to have to sit there helplessly
watching his mother be subjected to those conditions. There was nothing said at that
meeting that could not have been said over the phone.
Under the direction of Dr. David T. Feinberg, Luisa and Jeffrey were subjected to
cruel and unusual punishment, for two hours, at the meeting with Josh and Stacey.
At the meeting, Josh and Stacey related that after the meeting held late Friday
afternoon, October 21, 2016, with Luisa, Shelly, and Diane, employees in Jeffrey’s
department suddenly had a list of complaints.

Therefore, without investigating or

speaking with Jeffrey first about the complaints, they banned him. Luisa spoke with the
employees. They did not know what was going on and did not want to get involved.
On November 4, 2016, several members of the IT Department worked in the
Patient Access Dept on the laptops and on the master computer in the Interview Room
next to Janet Sherman’s Office. During that time, first thing in the mornings at the

14

direction of Janet Sherman, Can Depak instructed Luisa to correct some alleged errors on
the EPIC system.

That was unusual because the Patient Access Reps were always

instructed to interview the patients on the hospital floors before working on anything else.
Luisa’s symptoms had become progressively worse with more and more exposure
to her work space. While doing the work Can told Luisa she must do, the feeling in
Luisa’s head and body were more severe than she had ever felt before. The sensations of
being electro-shocked were so intense it was unbearable. Can stood in the empty cubicle
behind the partition between Luisa’s cubicle and the empty cubicle next to Luisa’s while
she walked Luisa through the alleged errors. Can stated Janet had instructed her to walk
Luisa through these alleged errors.
Feeling herself going into a zombie-like state, and not being able to withstand the
torture any longer, Luisa moved out of her cubicle and refused to work there any longer.
Luisa moved to a laptop cart. Cari, then, in apparent violation of Janet’s orders, would
not stand next to Luisa. Can then sat down at her own cubicle, apparently ignoring
Janet’s instructions.
Luisa’s symptoms, even at the laptop cart, were extremely severe. Luisa, almost
in a stupor, made her way to the bathroom and threw up. Luisa came back to the office
and told Wendy and Janet she had to go home. Janet Sherman and Wendy Low tried to
prevent Luisa from leaving.
Janet Sherman and Wendy Low told Luisa she must be seen by Employee Health
before filing a workman’s compensation claim.
On November 8, 2016, at Employee Health, Lisa Kobelis, PAC, said Geisinger
would not accept an Employee Injury Report written on paper. Lisa Kobelis, PAC,

15

refused to examine Luisa unless Luisa completed the report online. Lisa Kobelis, PAC,
tried to force Luisa to complete the Report online at the computer in their office, saying
she would help her. After much debate, a nurse came out from the back and gave Luisa a
hard copy to complete. Lisa Kobelis, PAC tried to snatch it from Luisa’s hand. Luisa
pulled the form away from her, quickly folded it and put it in her coat pocket.
On November 9, 2016, Luisa went to a Geisinger Urgent Care. They refused to
see her but allowed her to fax the completed Employee Injury form to Workman’s Comp.
Valerie Mohutsky, Manager, Workman’s Comp., denied receiving the Employee Injury
Report. Luisa called HR’s Jan Letteer, who said she would speak to Valerie.
Lisa Kobelis, PAC, saw Luisa that afternoon. Lisa Kobelis, PAC, said that based
on a report of a test conducted at Luisa’s work station, the air quality was good and
everything was ergonomically fine.

Despite Luisa’s symptoms, Lisa Kobelis, PAC,

wrote an order that Luisa should go back to work the next day without limitations.
Geisinger Hospital did not send Luisa to a Panel doctor.
Luisa, again, as she had several times, met with Jan Letteer relating the
discrimination, harassment, abuse, and torture. Luisa also discussed with Jan Letteer
transferring to another department. Wendy Low, Luisa’s immediate supervisor, had
previously spoken to Luisa about transferring her to a different department, but she had to
get it approved. Geisinger Hospital did not transfer Luisa to a different department.
Luisa had to go see her own doctor, who determined that the onset of Luisa’s
symptoms began with exposure to vent noise over her head in her work station. Luisa’s
doctor recommended, several times, that Luisa should be moved to a different work space
away from the vent and that when she returned to work, she would have limitations.

16

Geisinger Hospital did not honor Luisa’s doctor’s orders. Instead, Luisa was never
moved from the torturous work space.
Jan Letteer Fed Ex’d a letter to Luisa threatening to terminate her employment if
Luisa’s doctor did not complete an ADA form. Luisa immediately took the ADA form to
her doctor. When Luisa returned to work, her work station was still under the vent
despite all the doctor’s notes, recommendations, and restrictions. Luisa was forced to
remain at her torturous work station.
On December 8, 2016, under the direction of Dr. David T. Feinberg, after Luisa
turned in the ADA form, Jan Letteer, Janet Sherman, and Wendy Low wrongfully
terminated Luisa in retaliation for having spoken out about the discrimination,
harassment, black-balling, abuse, and torture that both Luisa and Jeffrey had been
subjected to.
Terminating Luisa, Jan Letteer stated, “You’re not happy with us, so we’re not
happy with you.” Luisa was escorted to her work station by a security guard. Jan Letteer
followed and snatched Luisa’s training and other materials out of her hands, saying,
“This is Geisinger property!” As Luisa was walking out the door of the hospital, Jan
Letteer said, “Get Out!”

17

REASONS FOR GRANTING THE PETITION

Luisa Liberto and Jeffrey Liberto were targeted, discriminated against under
. Title VII of the Civil Rights Act of 1964, 1981, and 1990; and Title VII of the
Civil Rights Act, 42 U.S.C. s2000e (ADA) 42 U.S.C 12101, due to their
race, color, and disabilities.
Luisa Liberto and Jeffrey Liberto were subjected to egregious abuse and cruel
and unusual punishment by Geisinger Hospital upper management in
violation of the Eighth (VIII) Amendment of the Constitution of the United
States.
Luisa and Jeffrey were black-balled at Geisinger and continue to. be black­
balled in the area in which they live. This violates their Civil Rights and the
Declaration of Independence; and it is affecting their quality of Life, Liberty,
and Pursuit of Happiness.
Petitioners have suffered and continue to suffer damages because of
everything they were subjected to. Luisa is now hypersensitive to electricity,
electrical vivratory noises, and high frequency sounds. Luisa was forced into
early retirement due to her health conditions and the black-balling.
Petitioners have been destroyed financially: suffering from poverty, eviction,
and even two (2) months of homelessness, having to sleep in their car with
Jeffrey’s emotional support dog.

18

Petitioners have been affected and continue suffering from damages caused
by Geisinger Hospital, including but not limited to, physical, financial,
material, emotional, and psychological damages.
No American citizen, especially Americans with disabilities, should ever be
subjected to such egregious acts of discrimination, harassment, black-balling,
abuse, and torture (cruel and unusual punishment).
No Employer should have the right to target any American citizen, especially
those with disabilities, and inflict such incomprehensible, egregious acts of
cruel and unusual punishment.
No Employer should have the right to wrongfully terminate, ban, or prevent
any American citizen from employment in order to further inflict cruel and
unusual punishment, hiding under “At Will Employment” law.
No Employer should have the right to black-ball any American citizen,
especially those with disabilities, inflicting further cruel and unusual
punishment and ruining their lives, health, self-esteem, liberty, and their
efforts in moving forward in their pursuit of happiness.
Geisinger Hospital, or any other employer, should not be allowed to inflict
such egregious acts on Petitioners or any other human being ever again.

19

CONCLUSION

For all the foregoing reasons, Petitioners Luisa Liberto and Jeffrey Liberto respectfully
request that this Honorable Court grant the Petition for a Writ of Certiorari.

Respectfully submitted,

%>
-^rr

y

Date:

Luisa M. Liberto, et al

June 4.2021

20

